                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



August 12, 2014

Gary H. Harris, OCP 6A-NST

REQUEST FOR FINAL ACTION – AUDIT 2014-15075 – TVA’S ENERGY SERVICES
CONTRACTS FOR FEDERAL CUSTOMERS



Attached is the subject final report for your review and final action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final actions are complete. In accordance
with the Inspector General Act of 1978, as amended, the Office of the Inspector General is
required to report to Congress semiannually regarding audits that remain unresolved after
6 months from the date of report issuance.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions or wish to discuss our findings, please contact Jessica L.
Monroe, Auditor, at (865) 633-7338 or Lisa H. Hammer, Director, Operational Audits, at
(865) 633-7342. We appreciate the courtesy and cooperation received from your staff
during the audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Evaluations)
ET 3C-K

JLM: BSC
Attachment
cc (Attachment):
     Kimberly A. Bolton, WT 6A-K                             R. Windle Morgan, WT 4D-K
     Kimberly M. Curl, WT 3D-K                               Brent L. Powell, CSC 1A-MFK
     William D. Johnson, WT 7B-K                             John M. Thomas III, MR 6D-C
     Dwain K. Lanier, MR 3K-C                                TVA Board of Directors
     Justin C. Maierhofer, WT 7B-K                           Van M. Wardlaw, OCP 6E-NST
     Robin E. Manning, MR 3A-C                               Lucius D. Williams, OCP 6A-NST
     Richard W. Moore, ET 4C-K                               OIG File No. 2014-15075


      WARNING: ThIs document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
       distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
                               TVA RESTRICTED INFORMATION


Office of the Inspector General                                                   Audit Report
                                                               To the Vice President, Industrial
                                                               Marketing and Services




TVA’S ENERGY SERVICES
CONTRACTS FOR
FEDERAL CUSTOMERS




Audit Team                                                                                                      Audit 2014-15075
Jessica L. Monroe                                                                                                August 12, 2014
Noel K. Kawado

             WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
             distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                     is not to be further distributed without prior approval of the Inspector General or his designee.


                             TVA RESTRICTED INFORMATION
Office of the Inspector General                                            Audit Report




ABBREVIATIONS
DOE                        Department of Energy
ERS                        EnergyRight® Solutions
ESCO                       Energy Services Company
FEMP                       Federal Energy Management Program
FESP                       Federal Energy Services Program
FY                         Fiscal Year
GOES                       Governance, Oversight, Execution, and Support
IM&S                       Industrial Marketing and Services
IRS                        Internal Revenue Service
OGC                        Office of the General Counsel
O&M                        Operations and Maintenance
TVA                        Tennessee Valley Authority
UESC                       Utility Energy Service Contract




Audit 2014-15075

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                        Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND………………………………………………………………………1

OBJECTIVE, SCOPE, AND METHODOLOGY……………………………..3

FINDINGS ............................................. ……………………………………..4
    UNABLE TO DETERMINE IMPACT OF PROGRAM ON ENERGY
    EFFICIENCY AND TVA’S VISION ............................................................... …5

    PROGRAMMATIC GAPS EXIST ..........................................................………6

    OTHER OPPORTUNITIES FOR IMPROVEMENT ..............................……….7

RECOMMENDATIONS…………………………………………………………….8

MANAGEMENT’S RESPONSE AND OUR EVALUATION.................... 9


APPENDIX
MEMORANDUM DATED AUGUST 6, 2014, FROM GARY H. HARRIS TO
ROBERT E. MARTIN




Audit 2014-15075

                                  TVA RESTRICTED INFORMATION
                        AUDIT 2014-15075 – TVA’S ENERGY SERVICES
                          CONTRACTS FOR FEDERAL CUSTOMERS
                                  EXECUTIVE SUMMARY

      Why the OIG Did This Audit

          The Tennessee Valley Authority (TVA) currently provides energy
          efficiency services to federal customers under the Federal Energy
          Services Program (FESP).i In the fall of 2013, TVA’s Industrial Marketing
          and Services (IM&S) group performed an evaluation of the FESP
          predecessor, Energy Services Company (ESCO) program, due to
          previously identified inconsistencies and gaps, including an absence of
          oversight or project controls and unclear roles and responsibilities. Due to
          the potential risk exposure to TVA, we conducted a programmatic review
          of ESCO and FESP. The objective of our review was to evaluate if the
          program is meeting its intended purpose of providing energy efficiency for
          the customer. Specifically, we reviewed program documentation and
          conducted interviews to determine (1) whether the intended purpose of
          providing energy efficiency for the customer is achieved, (2) if the program
          aligns with TVA’s core mission and vision, (3) if programmatic gaps were
          identified during TVA’s internal review and programmatic improvements
          were implemented to address the gaps, and (4) if other opportunities for
          improvements exist.

      What the OIG Found

          TVA was unable to provide documentation to allow determination of the
          amount of actual energy efficiency achieved specifically by ESCO for two
          of three current customers participating in the program; therefore, we were
          unable to determine the total impact of ESCO on providing energy
          efficiency for the customer. As a result, we were unable to determine to
          what degree ESCO supported accomplishment of the 2020 vision of
          greater energy efficiency. As part of our audit, we also assessed TVA’s
          GOESii and business case documentation and found that while substantial
          improvements were being made to the program, programmatic gaps still
          exist and other opportunities for improvement exist.




i
     FESP was previously known as the ESCO program. According to the Program Manager, FESP
     began in December 2013 with the initial job of restarting the ESCO projects under the
     contractual arrangements from ESCO.
ii
     According to TVA, “GOES” analysis “provides a useful construct for helping organizations assign
     functional accountability.” GOES stands for: “Governance (Who makes the rules for a particular
     function?), Oversight (Who oversees the function to ensure compliance with those rules?), Execution
     (Who actually implements the functional work to be done?), and Support (Who supports that functional
     work?).”
                                                                                                     Page i

                                     TVA RESTRICTED INFORMATION
                       AUDIT 2014-15075 – TVA’S ENERGY SERVICES
                         CONTRACTS FOR FEDERAL CUSTOMERS
                                 EXECUTIVE SUMMARY

      What the OIG Recommends

           We recommend TVA’s Vice President, IM&S:

              Develop performance metrics that enable IM&S to measure the
               effectiveness of the program in generating actual energy efficiency.
              Develop a process to capture and consistently record complete and
               accurate actual energy efficiency information for TVA and its
               customers and coordinate with the EnergyRight® Solutions group to
               provide energy efficiency data that could contribute to TVA’s overall
               energy efficiency goals.
              Develop and implement (1) specific criteria for evaluating the selection
               of projects, (2) a marketing plan inclusive of direct- and distributor-
               served federal customers, and (3) a document outlining how
               segregation of duties is enforced.
              Clarify the GOES and business case documentation by (1) further
               explaining how program management can impact operations and
               maintenance, (2) removing reference to or linking to the complete
               FESP Manual,iii and (3) coordinating with the Office of the General
               Counsel to determine applicability of the Economy Act to FESP.

           TVA management agreed with the findings and recommendations. See
           the Appendix for TVA’s complete response.




iii
      The FESP Manual refers to the FES Program Manual, Process & Procedures.
                                                                                  Page ii

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                                             Audit Report


BACKGROUND
In the early 1990s, the Tennessee Valley Authority (TVA) created the Energy
Services Company (ESCO) program to provide energy efficiency services to a
variety of installations including commercial facilities, industrial facilities, school
systems, state and local governments, and military and federal installations. The
ESCO program was modeled partly after a federally-authorized Utility Energy
Service Contract (UESC); its purpose is to “. . . offer Federal agencies an
effective means to implement energy-efficiency, renewable-energy, and water-
efficiency projects.” In a UESC, the utility will provide the analysis, design, and
installation and when necessary, arrange financing. The authority of TVA to
enter into UESC arrangements is granted under federal law; specifically by
United States Code, Title 42, § 8256, which authorizes and encourages federal
agencies to participate in energy-efficiency, water-conservation, and electricity-
demand programs offered by utilities. Additionally, according to the Program
Manager, the ESCO program was partly modeled after commercial energy
savings companies and provided services to nonfederal customers.

All executive federal agencies, including TVA, are required by Executive
Order 13423, signed in 2007, to reduce energy intensity by 3 percent per year
through 2015 or 30 percent by 2015 (compared to fiscal year [FY] 2003 as a
base year). Agencies, including TVA, are required to report annually to
Congress1 on their progress towards these goals. Additionally, agencies can
voluntarily report UESC project information to the Department of Energy (DOE)
Federal Energy Management Program (FEMP). This information, according to
the DOE FEMP Web site, is compiled into an annual report supplied to
Congress.

TVA’s Customer Resources group is responsible for energy efficiency-related
programs. Industrial Marketing and Services (IM&S), in TVA’s Customer
Resources organization, was responsible for administering ESCO.
EnergyRight® Solutions (ERS), under Customer Resources, is responsible for
measuring the effect of TVA’s energy efficiency programs on the TVA service
region. According to a program manager in ERS, TVA’s ERS group may receive
data on actual energy efficiency from projects when ERS measurements are
taken at a facility. ERS is also responsible for reporting information from energy
efficiency, demand response, and renewable energy programs in the annual
TVA EnergyRight® Solutions Highlights Report.

In 2010, TVA issued its vision to be one of the nation’s leading providers of low-
cost energy by 2020. TVA’s 2020 vision included a goal of greater energy
efficiency. In concert, TVA expanded its existing ERS program to include energy
efficiency programs for all commercial and industrial customer classes, known as
ERS for Business and ERS for Industry. As a result of the ERS expansion, some

1
    United States Code, Title 42, §8258 describes reporting requirements. The annual report to Congress is
    the Federal Government Energy Management Conservation Programs Report.
Audit 2014-15075                                                                                   Page 1

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                  Audit Report


of the nonfederal customers previously served by the ESCO program began to
be served by ERS. The ESCO program, going forward, was only offered to
federal customers.

Under the program, TVA enters into contractual agreements, or delivery orders,
with federal customers to assist in meeting their energy efficiency requirements.
TVA contractors conduct detailed energy studies, providing information on
Energy Conservation Measures2 including cost, proposed energy savings from
implementing the measure, and a calculation of the simple payback period for
recapturing the implementation cost. TVA selects contractors to perform the
energy efficiency work, often conducted in phases, for the federal customers.
When the work is complete, TVA or its contractors may perform monitoring and
verification work as outlined in the contract. Monitoring and verification work
measures the actual energy efficiency of a project which is reported to TVA and
the customer.

In the fall of 2013, program issues and inconsistencies lead to an internal review
of ESCO. As part of the program review, a team from TVA’s IM&S organization
conducted a Governance, Oversight, Execution, and Support (GOES) analysis.
Program deficiencies noted as part of the review included an absence of oversight
or project controls and unclear roles and responsibilities. Based on the initiation
of the GOES analysis, a moratorium on all work was placed on then-current
delivery orders and projects until programmatic improvements could be
implemented. The GOES analysis resulted in the initiation of a program redesign
focused on completing existing projects with greater oversight and implementing
additional controls and procedures. As part of the GOES analysis, detailed
documents citing planned improvements in process controls and solutions for
identified gaps in the program were produced. According to a document dated
November 2013, “The outcome of the ESCO program review was the sun-setting
of the ESCO program in its current form and the development and implementation
of the new Federal Energy Services Program (FESP) to effectively and efficiently
help our federal customers meet energy-related goals. . .” According to the
Program Manager, FESP began in December 2013 with the initial job of restarting
the ESCO projects under the contractual arrangements from ESCO. In February
2014, work resumed on existing delivery orders. In addition, TVA began to reach
out to federal customers who might be interested in the FESP services.
According to FESP’s Program Manager, as of the date of this report, TVA has not
initiated a new project under FESP; however, there are FESP projects in the
development phase planned to be initiated in FY2015.

TVA currently has active projects at Fort Campbell in Clarksville, Tennessee, and
Hopkinsville, Kentucky; Redstone Arsenal in Huntsville, Alabama; and Internal



2
    Energy Conservation Measures may be suggested by either the customer or TVA and include items such
    as lighting projects to replace less efficient lighting, rework of heating, ventilation and air conditioning
    systems, insulation project for buildings, etc.
Audit 2014-15075                                                                                        Page 2

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                                             Audit Report


Revenue Service (IRS) in Memphis, Tennessee.3 We have summarized the
information we obtained from signed delivery orders provided by FESP staff in
Table 1.

                          Customer                     Contract Amount
                          Fort Campbell                   $ 10,939,923
                          IRS Memphis                        10,735,100
                          Redstone Arsenal                   25,298,133
                                                                        Table 1

OBJECTIVE, SCOPE, AND METHODOLOGY
In 2013, program issues and inconsistencies led to a review of ESCO. The
outcome of the review was the termination of ESCO and the initiation of FESP in
December 2013. Due to the potential risk exposure to TVA, we conducted a
programmatic review of FESP and its predecessor, ESCO.

Our objective for this audit was to evaluate if the program is meeting its intended
purpose of providing energy efficiency for the customer. Specifically, we
reviewed program documentation and conducted interviews to determine
(1) whether the intended purpose of providing energy efficiency for the customer
is achieved, (2) if the program aligns with TVA’s core mission and vision, (3) if
programmatic gaps were identified during TVA’s internal review and
programmatic improvements were implemented to address the gaps, and (4) if
other opportunities for improvements exist. The scope of our review was active
projects in FYs 2012 and 2013.

To achieve our objective, we performed the following:

    Identified and reviewed applicable policies and procedures relating to TVA’s
     FESP and its predecessor, ESCO, to gain an understanding of how the
     program operates and who in TVA interacts with the program.
    Researched information on the DOE FEMP UESC to understand how TVA’s
     program is affected by being conducted under the authority of and in
     accordance with this larger federal program.
    Conducted interviews with affected parties (program manager in IM&S,
     Customer Resources, Power Contracts, Supply Chain, and others) to gain an
     understanding of program. Specifically, we asked questions to obtain insight
     into the purpose of the program, mechanics of how the program operates,
     energy savings from the program, costs/revenues associated with the
     program, and other questions as necessary.
    Reviewed current customer contract documentation to understand the size of
     the current program and the key contractual terms.

3
    Fort Campbell and Redstone Arsenal are both United States Army installations directly served by TVA.
    IRS Memphis is a distributor-served customer of Memphis Light, Gas and Water.
Audit 2014-15075                                                                                   Page 3

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                         Audit Report


   Obtained summary information on costs and revenues associated with the
    program and other costs or benefits to understand the size of the program
    and benefits and costs to TVA.
   Requested and reviewed (1) electronic information and (2) hardcopy
    documentation from files in storage at TVA’s Nashville office to identify
    documentation supporting achievement of actual energy efficiency by the
    program.
   Reviewed evaluation studies performed by TVA and information on
    performance measures used to evaluate the program to understand changes
    made to the program during the GOES analysis and how the success of the
    program is measured.
   Evaluated TVA self-identified process improvements for the program to
    determine if improvements were implemented or were in the process of being
    implemented. We also evaluated if any remaining programmatic gaps existed
    or further improvement was necessary.
   Conducted interviews with TVA personnel, including the Office of the General
    Counsel (OGC), and reviewed GOES and business case documentation for
    the program to determine if the Economy Act applied to these transactions.
   Reviewed TVA’s mission and 2020 vision to determine if energy efficiency
    (the intended purpose of the program) helps meet these goals and how the
    program relates to TVA’s mission and vision.
   Obtained an understanding of internal controls relevant to the audit objective
    and performed limited testing, including (1) recording of actual energy
    efficiency achieved by the program and (2) segregation of duties for project
    management.

Fieldwork was conducted from January 2014 through June 2014. We conducted
this performance audit in accordance with generally accepted government
auditing standards. Those standards require we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objective.

FINDINGS
TVA was unable to provide documentation to allow determination of the amount
of actual energy efficiency achieved specifically by ESCO for two of three current
customers participating in the program; therefore, we were unable to determine
the total impact of ESCO on providing energy efficiency for the customer. As a
result, we were unable to determine to what degree the program supports
accomplishment of the 2020 vision of greater energy efficiency. As part of our
audit, we also assessed TVA’s GOES and business case documentation and

Audit 2014-15075                                                              Page 4

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                          Audit Report


found that while substantial improvements were being made to the program,
programmatic gaps still exist, and other opportunities for improvement exist.

UNABLE TO DETERMINE IMPACT OF PROGRAM ON ENERGY
EFFICIENCY AND TVA’S VISION
As previously mentioned, the ESCO program was discontinued and the program
was replaced with FESP in December 2013. According to the Program Manager
there have not been any new projects started under FESP. Projects mentioned
below were started under the former ESCO program and FESP staff will
administer the remaining contractual agreements under ESCO. Since FESP was
modeled after the former ESCO program, we reviewed completed and ongoing
ESCO projects to provide feedback to improve FESP. The intended purpose of
ESCO and FESP is to achieve energy efficiency for the customer. However, we
were unable to determine how much the program impacts energy efficiency,
because TVA was unable to provide complete documentation to allow
determination of the total amount of actual energy efficiency achieved by the
program.

As previously stated, TVA contractors’ detailed energy studies submitted to the
customer contained estimated energy efficiency savings. According to contract
language, validation of these estimated energy efficiency savings is only shown
by monitoring and verification reports 4 provided by the contractor. Individual
contracts set the parameters of these monitoring and verification services in terms
of length of monitoring. In December 2013, we requested TVA personnel provide
any evidence of actual energy savings achieved from the program. TVA provided
one monitoring and verification report for IRS Memphis phase I lighting work and
was unable to provide monitoring and verification reports for Fort Campbell or
Redstone Arsenal. The information in these reports contained the estimated
energy efficiency savings based on engineering estimates for each lighting
module. We visited the Nashville, Tennessee, IM&S office in January 2014 and
reviewed all hardcopy files maintained in storage and electronic files related to the
program in order to obtain information related to energy savings but were unable
to locate any documentation showing actual energy efficiency achieved.

In May 2014, the current FESP Program Manager provided a spreadsheet
prepared by the former Program Manager showing energy savings for program
customers from FYs 1998 through 2012. Specifically, the spreadsheet contained
revenue, energy savings (in dollars), kilowatt hour impact, and peak load reduced
(kilowatts) for each project; however, complete data was not available for all
projects listed. We requested supporting information to validate the energy
savings, but no supporting information was provided.
As previously noted, federal entities can voluntarily report energy efficiency
information to DOE FEMP. Fort Campbell and Redstone Arsenal provided
information to DOE FEMP. During our audit, TVA requested and obtained data
4
    TVA does not guarantee the savings provided by the work performed.
Audit 2014-15075                                                               Page 5

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                                              Audit Report


on energy savings from the DOE for some of the Fort Campbell and Redstone
Arsenal projects; however, the information was not a complete list of data for all
projects for these customers, and TVA was unable to provide support to verify
this information.

ERS provided data from its measurements taken at federal facilities. We
reviewed the data provided and confirmed actual energy efficiency was recorded
for the IRS Memphis lighting project and was identified as data from an ESCO
project. However, we were unable to determine if other data provided showed
actual energy efficiency from ESCO projects, because the data collected was
only identified as ERS data. We also noted Redstone Arsenal was not included
in any of the data provided. As a result, we were unable to determine the total
amount of actual energy efficiency achieved specifically by ESCO. According to
the Program Manager, staff from ERS and FESP met on June 9, 2014, and
FESP staff has plans to provide data to ERS delineated as from FESP projects in
FY2015; based on the results, the team will then determine if this is how
information will be recorded going forward. The FESP group also plans to begin
providing data on estimated energy efficiency goals from projects as part of ERS
annual goals.

Because TVA was unable to provide complete information to verify how much
actual energy efficiency was achieved by ESCO, we were unable to determine the
total impact of the program on energy efficiency. As a result, we were unable to
determine to what degree the program supports accomplishment of TVA’s
2020 vision of achieving greater energy efficiency.5

TVA Chief Executive Officer William D. Johnson has repeatedly emphasized the
importance of TVA focusing on projects and activities that support TVA’s mission
and vision. In the current TVA climate of staffing reductions and budget cuts, it is
increasingly important that every TVA program contributes to the accomplishment
of TVA’s mission and vision. Collecting and reporting energy efficiency data could
provide support for FESP’s relationship to accomplishment of TVA’s vision of
greater energy efficiency.

PROGRAMMATIC GAPS EXIST
As previously mentioned TVA performed a GOES analysis of the program in the
fall of 2013. The analysis identified program deficiencies and gaps as well as
proposed solutions for the program going forward. The GOES team is
implementing or has implemented these solutions to improve the oversight and
execution of the program. However, we identified additional programmatic gaps
exist in the program that were not addressed in FESP documentation.

5
    FESP program personnel stated economic development is how the program ties to TVA’s mission;
    however, all the documentation we reviewed related to energy efficiency as the intended purpose and
    goal of the program. In addition, the federal program, UESC, which provides the authority for TVA to
    enter into FESP contracts, is focused on energy efficiency.
Audit 2014-15075                                                                                    Page 6

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                    Audit Report


Specifically, we found:

    There were no criteria on determining how TVA will select a project with
     customers. Criteria could include items such as a dollar value of projects, a
     target of minimum energy efficiency achieved by the project, or other project
     or financial criteria. Adequate project selection criteria can yield better results
     for TVA by reducing risks and maximizing benefits.
    There was no marketing plan for informing all federal customers (both direct-
     and distributor-served) of the availability of the program. While the current
     Program Manager and his staff have been actively pursuing leads for new
     direct-served customers within the region and have plans to participate in a
     DOE forum, there is no defined marketing plan for FESP. Additionally, as
     TVA is currently providing services to a distributor-served customer, IRS
     Memphis, there should also be a marketing plan aimed at making the
     program available to other distributor-served federal customers. A marketing
     plan can prevent any perceived or actual favoritism by allowing access to
     program information to all customers who qualify for the program.
    There was no enforced segregation of duties within the FESP program. In
     the past one of the issues with the program was that the program manager
     was, at a minimum, responsible for negotiating the contract, approving the
     invoices, signing the substantial completion form at the end of the project, and
     closing the project. While there were additional controls around the process
     in terms of adherence to standard policies and procedures and development
     of a roles and responsibilities map, there was no documented segregation of
     duties among FESP staff. Having clearly delineated duties can help reduce
     the risk of fraud or error by reinforcing, in writing, the importance of a single
     person not performing incompatible duties.

OTHER OPPORTUNITIES FOR IMPROVEMENT
Our review of the GOES and business case documentation also disclosed areas
for improvement in the clarity of the documentation. For example:

    The GOES documentation listed estimated annual net revenue6 from the
     program as $1.2 million for every $10 million in projects. However, these
     contracts are fixed price, and TVA does not recognize the difference between
     the fixed contract price and dollars spent as net revenue, but instead
     recognizes this amount as a reduction to TVA’s operations and
     maintenance (O&M) expenses. According to TVA personnel, this reduction in
     O&M expenses resulted from good project management. Conversely, if TVA

6
    TVA classifies revenue and expenses as either above-the-line or below-the-line. Above-the-line
    revenue/expense is derived from activities that are part of TVA’s overall mission while
    “revenue/expenses that are derived from activities outside of our overall mission should be captured
    ‘below-the-line.’ ” Typically, these activities involve TVA entering into a contract with another corporate or
    private entity to perform specific services at the direction of the other entity. In these arrangements, the
    primary beneficiaries are not TVA stakeholders.
Audit 2014-15075                                                                                          Page 7

                                      TVA RESTRICTED INFORMATION
Office of the Inspector General                                                               Audit Report


     does not manage the project well, O&M expenses will be increased by any
     amount over the contracted amount. To further the transparency of the
     program, it could be beneficial to more accurately explain the effect of the
     project management and program performance on O&M expenses.
    One of the documents referenced as a governance document in the
     GOES analysis did not exist. Specifically, the FESP Manual did not exist.
     In March 2014, the Program Manager informed us the document was in the
     process of being created. Having a single document outlining the processes
     and procedures for the program could provide a governance framework for
     the program.
    Business case documentation for FESP states the program is performed
     “. . . in accordance with the Economy Act7 under the Federal Acquisition
     Regulations” which requires TVA to “. . . recover its full costs for services
     provided to other federal agencies.” However, when we interviewed
     personnel from TVA’s OGC we were informed the Economy Act did not apply
     to FESP. It is important for TVA staff to share a common understanding of
     how statutes affect FESP.

These items noted above represent opportunities to improve the documentation
for FESP and more clearly communicate the governing documents, applicable
legislation, and potential financial impact of the program.

RECOMMENDATIONS
We recommend TVA’s Vice President, IM&S:

    Develop performance metrics that enable IM&S to measure the effectiveness
     of the program in generating actual energy efficiency.
    Develop a process to capture and consistently record complete and accurate
     actual energy efficiency information for TVA and its customers and coordinate
     with the ERS group to provide energy efficiency data that could contribute to
     TVA’s overall energy efficiency goals.
    Develop and implement (1) specific criteria for evaluating the selection of
     projects, (2) a marketing plan inclusive of direct- and distributor-served
     federal customers, and (3) a document outlining how segregation of duties is
     enforced.
    Clarify the GOES and business case documentation by (1) further explaining
     how program management can impact O&M, (2) removing reference to or
     linking to the completed FESP Manual, and (3) coordinating with the OGC to
     determine applicability of the Economy Act to FESP.



7
    The Economy Act is legislation that governs the exchange of goods or services between federal entities.
    It provides that neither a profit nor a loss can result from these transactions.
Audit 2014-15075                                                                                    Page 8

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                        Audit Report


MANAGEMENT’S RESPONSE AND OUR EVALUATION
In response to a draft of this report, TVA management agreed with our findings
and recommendations and has provided completed and planned actions to
improve FESP. Specifically, IM&S will:

   Develop performance metrics by March 31, 2015. Metrics will measure actual
    energy efficiency impacts of the program including demand and energy
    reductions in support of ERS goals and measure the economic impact of the
    program, which may include jobs created and/or retained and capital
    expenditures in the Valley attributed to FESP projects.
   Work with ERS to finalize a comprehensive FESP energy efficiency data
    collection and recording process which will be aligned with the existing ERS
    process by February 28, 2015.
   Develop the appropriate documents, procedures, and plans by December 31,
    2014, that will determine which projects will be accepted into FESP; market
    the FESP program through educating direct-served federal customers, local
    power company-served federal customers, local power companies, and other
    stakeholders about FESP and its benefits; and improve the current FESP
    roles and responsibilities document by adding segregation of duties to ensure
    effective controls are implemented and checks and balances are in place
    within the FESP model.
   Revise the GOES and base case documentation to include details of how
    program management impacts FESP O&M, remove reference to the
    completed FESP manual, and remove references to the Economy Act to
    accurately cite the correct federal authorizations by January 31, 2015.

We included TVA’s entire response in the Appendix. The Office of the Inspector
General concurs with the actions completed and planned to address our
recommendations.




Audit 2014-15075                                                             Page 9

                                  TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 1 of 3




TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 2 of 3




TVA RESTRICTED INFORMATION
                             APPENDIX
                             Page 3 of 3




TVA RESTRICTED INFORMATION
